Inspection Report I-98-04
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
Review of the Tri-State Violent Crime Task Force of
the United States Attorney's Office for the
District of Maryland
March 1998
Report Number I-98-04
TABLE OF CONTENTS
Transmittal Memorandum
Introduction
Funding for the Violent Crime Task Forces
Tri-State Violent Crime Task Force Goal and Objectives
Results of the Inspection
Review of Program Objectives and Accomplishments
Coordination
Resources
Intelligence
Seized Assets
Funding
Conclusion
Recommendations
Review of Financial Controls
Recommendation
Oversight of Task Force Activities
Recommendations
Appendix I Inspection Methodology
Appendix II Task Force Questionnaire
Appendix III Task Force Questionnaire - Respondents
Appendix IV Schedule of Responses to Task Force
Questionnaire by All Participants
Appendix V Schedule of Responses to Task Force
Questionnaire by DEA Special Agents
Appendix VI Schedule of Responses to Task Force
Questionnaire by Agency Officials
Appendix VII Schedule of Responses to Task Force
Questionnaire by State and Local Law Enforcement Officers
Appendix VIII Executive Office for United States
Attorneys' Response to Draft Report
Appendix IX United States Attorney District of
Maryland Response to Draft Report
Appendix X Office of the Inspector General's Analysis
of Managements' Response
MEMORANDUM FOR DONNA A. BUCELLA
DIRECTOR
EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Review of the Tri-State Violent Crime Task Force of the
United States Attorney's Office for the District of Maryland,
Report Number I-98-04
Attached is the final report on our review of the Tri-State Violent Crime Task Force
(VCTF) of the United States Attorney's Office for the District of Maryland. The Director,
Executive Office for United States Attorneys, requested that the Office of the Inspector
General review its VCTF program. The objectives of our review were to determine whether
the VCTF was meeting its program objectives as identified in the task force proposal,
whether the task force was expending funds for approved purposes, and whether program
managers were providing adequate oversight.
In January 1995 the United States Attorney for the District of Maryland proposed a
Tri-State VCTF that would operate in three separate jurisdictions (Western Maryland, the
West Virginia Panhandle, and Northwestern Virginia), and would be managed by the Drug
Enforcement Administration (DEA) Special Agents assigned to the Hagerstown, Maryland,
office. The VCTF was to investigate violent drug trafficking organizations in the
three-state area. In March 1995 the Director, Executive Office for United States
Attorneys, notified the United States Attorney for the District of Maryland that $111,232
was approved for the Tri-State VCTF.
We found that the United States Attorney for the District of Maryland and DEA had
achieved their goal of forming a task force of federal, state, and local law enforcement
officers. According to the case files and other records available, the Tri-State VCTF
initiated 18 investigations, arrested 45 drug traffickers and seized assets totaling
approximately $748,000 as of March 1997. At the time of our review, the VCTF had spent
approximately $16,500 in overtime funds to obtain these results. The VCTF had
approximately $75,500 remaining in its overtime budget.
We noted an administrative weakness in the financial controls regarding the approval
and payment of overtime to state and local police officers. We could not match the
overtime hours to a specific investigation or project. We recommend that the Director,
Executive Office for United States Attorneys, requires the United States Attorney for the
District of Maryland to revise the overtime reporting form to include case numbers or
other identification for task force activities and requires the state and local
enforcement organizations to submit a copy of the police officers' time and attendance
sheets with their monthly invoices.
As part of our review we sent a questionnaire to the Tri-State VCTF members and the
agency heads or agency representatives to obtain their views regarding the success of the
task force in meeting its objectives. Eighty percent of the responses to the questionnaire
indicated that the task force was successful in achieving its objectives. Six percent of
the responses showed that the task force was not successful in meeting its objectives in
all areas. While the United States Attorney's Office for the District of Maryland has
coordinated with most of the task force members, three of the nine agency officials
supporting the task force reported that they have not been informed of task force
activities and accomplishments. The agency officials' negative responses to the
questionnaire indicated that the task force was concentrating on the Hagerstown, Maryland,
area. We recommend that the Director, Executive Office for United States Attorneys,
requires the United States Attorney for the District of Maryland to establish procedures
to inform all VCTF participating agencies of task force activities.
In addition, based on the responses to our questionnaire, the DEA and United States
Attorney's Office for the District of Maryland had not adequately addressed their
objective of developing the Tri-State VCTF into a fully-funded task force in the near
future. We recommend that the Director, Executive Office for United States Attorneys
requires the United States Attorney for the District of Maryland to meet with federal,
state, and local officials participating in the VCTF to assess the feasibility of
continuing the task force as a fully funded project.
Our findings in this review also suggest that the United States Attorneys'
responsibilities regarding management and oversight of task force activities are not
clear. The Executive Office for United States Attorneys issued guidance to the United
States Attorneys' Offices regarding financial controls of the VCTF funds. This guidance,
however, did not clearly identify the lines of authority and responsibilities for managing
task force operations and funds. A Memorandum of Understanding was developed and
circulated for signature by the federal, state, and local law enforcement organizations
participating in the task force. However, the scope of the Memorandum of Understanding was
limited to describing the coordinated task force effort and its operational objectives--it
did not designate responsibilities for program management or financial oversight. In our
interview with the United States Attorney for the District of Maryland, she maintained
that it is not clear that her office has the oversight responsibility for VCTF activities.
Because DEA managed the day-to-day VCTF activities, she did not assume a strong oversight
role. She further asserted that her office did not receive clear written policies and
procedures identifying responsibilities for program oversight.
To ensure the task force is afforded every opportunity to meet its objectives, we also
recommend that the Director, Executive Office for United States Attorneys, issue guidance
that establishes a clear and meaningful system of accountability that designates roles and
responsibilities for program management and financial oversight by the United States
Attorneys' Offices and the Executive Office for United States Attorneys. We also recommend
that the Director, Executive Office for United States Attorneys, define the roles and
responsibilities of the United States Attorney's Office for the District of Maryland in
the Tri-State VCTF program.
We sent copies of the draft report to your office on December 11, 1997, and requested
written comments on the findings and recommendations. We have attached your March 4, 1998,
response as Appendix VIII. We have also attached the January 12, 1998, response from the
United States Attorney for the District of Maryland as Appendix IX.
On the basis of your written comments and the United States Attorney's, we consider
four recommendations resolved and open and one recommendation unresolved and open.
Appendix X explains why the recommendations were not closed and what action is needed for
closure. Please respond to the recommendations within 90 days of the date of this
memorandum. Your response should provide the additional information requested. If actions
are not completed within 90 days, please provide projected completion dates. Guidance on
report follow-up and resolution can be found in Department of Justice Order 2900.10.
As a matter of policy, Office of the Inspector General final inspections reports are
considered public records and will be included on the DOJ/OIG website. However, prior to
making this information available on the Internet, we ask that you review the report and
your comments and advise us, under separate cover, of any concerns you have relative to
proprietary, confidential or personal information that should not be released to the
general public pursuant to the Freedom of Information Act, the Trade Secrets Act, or any
other applicable law or policy.
We appreciate the cooperation of managers and staff throughout the Tri-State VCTF as we
performed our review. We hope our recommendations will be useful in your efforts to
improve and enhance the Tri-State VCTF operations and the overall VCTF initiative. Please
let me know if we can provide you with any additional information. If you have any
suggestions as to how we might improve our review process, please let us know.
cc: David Downs
Liaison
Executive Office for United States Attorneys
Lynne A. Battaglia
United States Attorney
District of Maryland
Vickie Sloan
Director
Audit Liaison Office
#####